No. 19-1121
In the

Supreme Court of the United States
__________________
GUADALUPE A. WELSH,
v.

Petitioner,

FORT BEND INDEPENDENT SCHOOL DISTRICT,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit

__________________

BRIEF IN OPPOSITION
__________________

JONATHAN G. BRUSH
Counsel of Record
AMY DEMMLER
ROGERS, MORRIS & GROVER, L.L.P.
5718 Westheimer, Suite 1200
Houston, Texas 77057
Telephone: 713/960-6000
Facsimile: 713/960-6025
jbrush@rmgllp.com
Counsel for Respondent
May 20, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . ii
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 1
SUMMARY OF THE REASONS FOR DENYING
THE WRIT OF CERTIORARI . . . . . . . . . . . . . . . . . . 8
REASONS FOR DENYING THE
WRIT OF CERTIORARI . . . . . . . . . . . . . . . . . . . . . 10
I.

Contrary to Welsh’s contention, there is no
Circuit split as to what constitutes an
adverse employment action for purposes of a
Title VII retaliation claim . . . . . . . . . . . . . . . 10

II.

This case is a poor vehicle for review because
the Fifth Circuit affirmed the district court’s
dismissal of Welsh’s retaliation claim on
causation grounds, not because it found that
she did not suffer an adverse employment
action . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

III.

Not only is a teacher’s placement on a TINA
not an adverse employment action, this
Court should not waste scarce resources
reviewing a type of teacher growth plan that
is specific to Texas . . . . . . . . . . . . . . . . . . . . . 12

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

ii
TABLE OF CITED AUTHORITIES
CASES
Burlington Northern & Santa Fe Railway Co. v.
White, 548 U.S. 53 (2006) . . . . . . . 9, 10, 11, 12, 13
Pacheco v. Mineta,
448 F.3d 783 (5th Cir. 2006). . . . . . . . . . . . . . . . 12
Ray v. Henderson,
217 F.3d 1234 (9th Cir. 2000). . . . . . . . . . . . . . . 10
Welsh v. Fort Bend Indep. Sch. Dist.,
941 F.3d 818 (5th Cir. 2019). . . . . . . . . . 11, 12, 13
STATUTES
19 Tex. Admin. Code § 150.1004 (2016) . . . . . . . . 6, 7
OTHER AUTHORITIES
Koehler v. La Grange Indep. Sch. Dist.,
No. 092-R10-801 (Comm’r Educ. 2002) . . . . . . . . 7

1
STATEMENT OF THE CASE
Many of the material facts are not in dispute.
Nonetheless, Welsh does not offer a full presentation of
either the underlying facts or the procedural history of
this case. Because this Court’s consideration of Welsh’s
argument will necessarily hinge on a thorough
presentation of the facts, the Fort Bend Independent
School District (the District) presents a detailed factual
summary.
This is a discrimination (national origin, gender,
and age) and retaliation lawsuit brought under Title
VII and the Age Discrimination in Employment Act
(ADEA). ROA.9-17, 301-03. At all times relevant to this
lawsuit, Welsh worked for the District as a high school
science teacher. ROA.248-49.
Relevant Procedural Background: Welsh I.
On August 15, 2012, Welsh filed a charge of
discrimination with the Equal Employment
Opportunity Commission (EEOC), and alleged that
that District: (1) discriminated against her on the basis
of her national origin, gender, and age; (2) subjected
her to a hostile work environment; and (3) retaliated
against her. ROA.304. On June 19, 2014, Welsh
amended her charge and stated in total: “Since the
filing of my previous EEOC charge of discrimination, I
continue to suffer discrimination and retaliation by
Fort Bend ISD in violation of Title VII of the Civil
Rights Act of 1964, as amended, and in violation of the
Age Discrimination in Employment Act of 1967, as
amended. This continued discrimination and
retaliation has created, and continues to create, a

2
hostile work environment.” ROA.305. The EEOC issued
Welsh a “no cause” right-to-sue letter on June 30, 2014.
ROA.60, 199.
Welsh I was filed in Texas state court on September
26, 2014. ROA.199. Welsh alleged the District violated
Chapter 21 of the Texas Labor Code (Texas’ analog to
Title VII) by discriminating against her and subjecting
her to a hostile work environment on the basis of her
national origin, gender, and age, and by retaliating
against her after she filed her charge of discrimination.
ROA.199.
The District filed a plea to the jurisdiction seeking
dismissal of Welsh I on the grounds that the lawsuit
was time-barred because Welsh’s Chapter 21 claims
were filed after the two-year statute of limitations set
by Section 21.256 of the Texas Labor Code. ROA.199.
On January 9, 2015, the state trial court granted the
District’s plea and dismissed Welsh I with prejudice.
ROA.199. Welsh did not appeal the dismissal of her
state court lawsuit.
Relevant procedural background: Welsh II.
On January 17, 2015, one week after Welsh I was
dismissed, Welsh filed another EEOC charge against
the District. ROA.301-03. Welsh again alleged that the
District: (1) discriminated against her on the basis of
her national origin, gender, and age; (2) subjected her
to a hostile work environment; and (3) retaliated
against her. ROA.199, 301-03. The EEOC, once again
issued Welsh a right-to-sue letter. ROA.199. Welsh II
(this lawsuit) was filed on May 12, 2015. ROA.9.
Welsh’s claims are based on the same allegations she

3
made in her January 2015 EEOC charge, which she
states, “were done in retaliation of Plaintiff filing and
amending her previous Charge of Discrimination on
June 19, 2014.” ROA.10-12.
The district court dismissed Welsh II on the grounds
that this suit was barred by res judicata. ROA.151-53.
On appeal, the Fifth Circuit reversed and reinstated
only those claims that were brought in Welsh II.
ROA.199-205. As such, Welsh’s live claims are
narrowly constrained to those that she included in her
January 2015 charge of discrimination and repeated
verbatim in her complaint – which are the only claims
that survived the un-appealed state court dismissal of
Welsh I. See ROA.205. Welsh’s claims are, as
summarized by the Fifth Circuit, based exclusively on
the following purported adverse events:
(1)

On April 3, 2014, she was placed under a
‘Teacher in Need of Assistance’ (“TINA”)
Plan for reasons that were fabricated;

(2)

On April 29, 2014, she received a
Professional Development and Appraisal
System, Summative Annual Report
(“PDAS”), which stated that she had been
placed on a TINA Plan and FBISD ‘would
not remove the disparaging memoranda’;

(3)

On July 9, 2014, Welsh requested a letter
of recommendation from the principal but
received no response;

(4)

During ‘the Fall semester of 2013,’ FBISD
deliberately failed to provide her with
accommodation information for her

4
students as a means of fabricating
another reprimand against her;
(5)

On September 16, 2014, Welsh filed a
grievance requesting that the TINA Plan
be removed from her file, that all
mentions of the grievance be removed
from her file, and that the school comply
with PDAS standards; and

(6)

On December 19, 2014, Allison Pike
‘made humiliating remarks’ to Welsh in
front of others.

ROA.200 (internal quotations in original); see also
ROA.9-17. While Welsh complains in her Petition of
other events stretching back to 2010, no claim based on
these events survived the dismissal of Welsh I or the
limits imposed on her claims by Welsh II. Compare
Petition at 18-21 (detailing alleged mistreatment that
occurred between 2010 and 2013), 59a-67a, 72a-74a,
79a, 80a-82a (evidence related to 2010 to 2013
occurrences).
On remand, after discovery, the district court
granted the District’s motion for summary judgement
and, on July 3, 2018, set forth its rationale in a detailed
memorandum opinion. ROA.530-40; see also ROA.541.
The district court found Welsh’s “discrimination claims
fail because she cannot raise an issue of fact as to
whether she suffered an adverse employment action.”
ROA.537. Specifically, “[t]he actions Ms. Welsh
complains of, while they may be frustrating to endure,
are exactly the types of things that the Fifth Circuit
does not consider adverse employment action.”

5
ROA.536. In addition, the district court held that, even
if Welsh had asserted a viable adverse employment
action, “the District has articulated non-discriminatory
reasons, and Ms. Welsh cannot establish
discriminatory pretext” because “Ms. Welsh has offered
no evidence of why these actions would be pretext for
national origin, gender, or age discrimination.”
ROA.537. As to Welsh’s Title VII retaliation claim, the
district court held that Welsh failed to allege a viable
adverse employment action, and recognized that
“[e]ven if these were adverse actions, the causal link is
insufficient to create an issue of material fact.”
ROA.539.
Welsh moved for reconsideration and a new trial on
August 16, 2018. ROA.546. On March 12, 2019, the
district court denied Welsh’s motion for
reconsideration, noting that it reaffirmed its previous
finding that placement on a growth plan, under the
circumstances, “does not qualify as an adverse
employment action.” ROA.641-42. Welsh, once again,
appealed to the Fifth Circuit. ROA.643.
Factual background relevant to Welsh’s surviving
claims
Welsh began her employment as a teacher with the
District in 1971. ROA.248-49. Other than a period
when she voluntarily resigned to move overseas and
raise her children, she has been continuously employed
at the District. ROA.248-49. In fact, as of the time of
her deposition in 2018, she was still employed by the
District as a science teacher at Dulles High School.
ROA.248. As noted above, Welsh argues that the
following are adverse employment actions: “(1) ‘the

6
unwarranted use of a TINA’; (2) refusal to remove the
TINA from Ms. Welsh’s professional record; (3) failure
to write a recommendation letter; (4) Ms. Pike’s loud
instruction for Ms. Welsh to feed the fish; and
(5) continuing to monitor and assess Ms. Welsh.”
ROA.535-36.
Welsh fails to properly document a special
education student’s needs and is placed on a
growth plan.
In the fall of 2013, one of Welsh’s students was
entitled to receive special education services. ROA.28698. Welsh claimed in the district court that the District
deliberately failed to provide her with this student’s
special education paperwork and individualized
education plan (IEP) as part of an elaborate scheme to
set her up for failure so that it could reprimand her.
ROA.11, 263. The student’s parents complained about
his academic progress. ROA.294-95. As a result of the
complaint, Dr. Terra Smith, an associate principal,
determined Welsh was aware of the need for
accommodation and failed to properly document the
student’s special education services. ROA.294-95.
After an exchange of memoranda between Smith
and Welsh, Smith placed Welsh on a teacher in need of
assistance plan (TINA) – i.e., a growth plan. ROA.296,
533. A “teacher in need of assistance” plan is a term of
art under the teacher appraisal system for Texas
educators. See 19 Tex. Admin. Code § 150.1004 (2016).
It is an intervention plan cooperatively developed by
the supervisor and teacher with the goal of improving
the teacher’s performance to a satisfactory level, and
can require a teacher to take steps to improve

7
performance outside of the appraisal process. See id.;
see also Koehler v. La Grange Indep. Sch. Dist., No.
092-R10-801, *8 (Comm’r Educ. 2002) (noting that the
Texas Administrative Code does not limit intervention
plans exclusively to when a teacher receives a low
appraisal and stating that intervention plans may be
created when a district believes they would be helpful
to the teacher).
The growth plan here required that Welsh receive
training in special education, which Welsh promptly
sought and received. ROA.268, 296-98. Smith then
noted in Welsh’s annual performance appraisal that
Welsh had completed the TINA. ROA.300.
Dissatisfied with the notation in her performance
appraisal, Welsh filed an administrative grievance with
the District seeking to have the reference to the TINA
removed from her appraisal. ROA.286-88. After
reviewing the grievance, an assistant superintendent,
Xochitl Rodriguez, denied Welsh’s request, finding that
there was evidence to support the need for the TINA.
ROA.286-88. Welsh did not appeal Rodriguez’s decision
to the District’s Board of Trustees. ROA.269.
Welsh does not receive a recommendation.
Welsh next claims that on July 9, 2014, she asked
her campus principal for a recommendation letter, but
never received one. ROA.12. In her deposition, Welsh
explained that her request was made in passing during
a conversation in a hallway. ROA.270, 533. Welsh
concedes that it is possible that her principal simply
forgot her request. ROA.270. But, in any event, once
she learned that her principal had not written her a

8
recommendation, she admitted she never took any
further action. ROA.269, 533. In fact, she testified, “I
didn’t follow through.” ROA.269, 533.
Welsh is told to feed the fish in her classroom.
As an aquatic science teacher, Welsh had 14 to 15
tanks of fish in her classroom and it was Welsh’s
responsibility to care for the fish. ROA.260, 533-34. On
December 19, 2014, when faculty were checking out for
the semester, one of the associate principals at Dulles,
Allison Pike, purportedly told Welsh, in front of other
coworkers, “Ms. Welch [sic], you need to take care of
your fish.” ROA.260, 534. Welsh inferred from this
statement that Pike did not want Welsh to rely on the
District’s maintenance staff to feed the fish. ROA.260,
534. Despite the fact that Welsh found Pike’s
comments hurtful, it is undisputed that Welsh
remained employed at Dulles as a teacher, at the time
of her deposition in 2018, and her “title, hours, salary,
and benefits did not suffer.” ROA.534, 540.
SUMMARY OF THE REASONS FOR DENYING
THE WRIT OF CERTIORARI
Welsh asks this Court to determine whether her
placement on a Texas-specific, statutorily created,
teacher growth plan (a TINA) constitutes an ultimate
adverse employment action for her discrimination
claim. A growth plan simply fails to meet the
requirements of an adverse employment action that are
dictated by the plain statutory text of Title VII. That
alone is reason for this Court not to review this case.
And, even if were not, this Court should not waste its
resources reviewing whether a specific type of growth

9
plan employed only in Texas could ever rise to the level
of an ultimate adverse employment action.
Welsh further argues that the TINA was an adverse
employment action for purposes of her retaliation
claim. Welsh claims to identify a Circuit split as to
what constitutes an adverse employment action for
purposes of a Title VII retaliation claim, warranting
this Court’s review. Welsh’s contention is mistaken for
the simple reason that the Circuit split she identifies
ceased to exist 14 years ago when this Court addressed
the very same question in Burlington Northern &
Santa Fe Railway Co. v. White, 548 U.S. 53 (2006) that
Welsh now asks this Court to decide. Since this Court’s
decision in Burlington, the Fifth Circuit has faithfully
followed this Court’s retaliation jurisprudence. Without
a Circuit split to harmonize, Welsh simply asks this
Court to engage in error correction. Not only would
that be a waste of this Court’s resources, there is no
error to correct. Critically, however, the Fifth Circuit
never addressed this question finding, instead, that
Welsh’s retaliation claim failed on causation grounds.
Accordingly, this question is not even properly before
this Court.
In short, Welsh offers this Court no reason – much
less any compelling reason – to review the Fifth
Circuit’s well-reasoned and manifestly correct decision.
Consequently, this Court should deny Welsh’s Petition
for a Writ of Certiorari.

10
REASONS FOR DENYING THE
WRIT OF CERTIORARI
I.

Contrary to Welsh’s contention, there is no
Circuit split as to what constitutes an
adverse employment action for purposes of
a Title VII retaliation claim.

Welsh informs the Court that the Circuits are in a
three-way split as to what constitutes an adverse
employment action for purposes of a retaliation claim.
Petition at 7, 10. Welsh apparently identified this split
based on her reading of the Ninth Circuit’s decision in
Ray v. Henderson, 217 F.3d 1234, 1241-43 (9th Cir.
2000); see Petition at 10-11. Ray does, in fact, state that
the Circuits are split in three ways, but that is no help
to Welsh. Ray, 217 F.3d at 1240-42. That is because
this Court, in Burlington Northern, eliminated the
Circuit split. 548 U.S. at 53. Specifically, this Court
rejected the Sixth Circuit’s (as well as the Fifth
Circuit’s) prior approach to retaliation claims – which
required that a plaintiff suffer an ultimate adverse
employment action in order to state a retaliation
claim – and, instead, held that a retaliation plaintiff
(distinct from a discrimination plaintiff) need not suffer
an ultimate adverse employment action in order to
press their claim. Id. at 53-54. Rather, a retaliation
plaintiff “must show that a reasonable employee would
have found the challenged action materially adverse,
which in this context means it well might have
dissuaded a reasonable worker from making or
supporting a charge of discrimination.” Id. at 67-68
(internal quotations omitted).

11
Welsh’s extensive discussion of the Fifth Circuit’s
pre-Burlington retaliation jurisprudence, thus, misses
the mark. See Petition at 11-16. That is because, since
Burlington, the Fifth Circuit has faithfully applied the
standard articulated by this Court. And, even in
Welsh’s own case, the Fifth Circuit recited the correct
standard. Welsh II, 941 F.3d at 826-27. Stated simply,
the Circuit split Welsh identifies no longer exists.
II.

This case is a poor vehicle for review
because the Fifth Circuit affirmed the
district court’s dismissal of Welsh’s
retaliation claim on causation grounds, not
because it found that she did not suffer an
adverse employment action.

Even if Welsh had identified an existing Circuit
split (and she did not), the legal definition of an
adverse employment action in the context of a
retaliation claim is immaterial to her claim. That is
because both the district court and the Fifth Circuit
disposed of her claim that her placement on a TINA
was an adverse employment action on the grounds that
she could not meet the causation prong of her
retaliation claim. Welsh II, 941 F.3d at 827 (“We need
not decide whether the TINA was a retaliatory adverse
employment action because there is no causal
relationship between the TINA and Welsh’s protected
activities.”); Petition at 30a-33a. And, because Welsh
does not challenge the Fifth Circuit’s holding on
causation, this Court should not grant certiorari to
answer a fact-specific question that was not even raised
by Welsh.

12
With respect to the remaining bases of Welsh’s
retaliation claim, the Fifth Circuit properly found she
failed to press and, thus, forfeited, any claim that the
District’s decision to assign her to special needs
students was retaliatory. Welsh II, 941 F.3d at 828.
This Court should not waste either its own resources or
the resources of the parties deciding a question that
was not properly preserved.
And none of the remaining adverse actions Welsh
identifies – (1) a forgotten letter of recommendation,
(2) a directive to feed her fish, and (3) the District’s
refusal to remove the TINA from her record – could
support a retaliation claim. Id. As to the letter, Welsh
conceded her principal may simply have forgotten.
ROA.270. Whether Welsh found a directive to feed her
fish humiliating or not, it is exactly the sort of trivial
slight employees must sometimes endure. See
Burlington, 548 U.S. at 67-68. Likewise, the District’s
refusal to remove the TINA was not pressed by Welsh
to a final decision maker – the District’s elected Board
of Trustees. Thus, she failed to exhaust her
administrative remedies and should not be able to base
her claim on it. ROA.269; Pacheco v. Mineta, 448 F.3d
783, 788 (5th Cir. 2006).
III.

Not only is a teacher’s placement on a TINA
not an adverse employment action, this
Court should not waste scarce resources
reviewing a type of teacher growth plan
that is specific to Texas.

The rest of Welsh’s Petition is dedicated to the
proposition that the District’s decision to place her on
a TINA was an adverse employment action. While

13
Welsh’s Petition is not always clear whether she is
challenging the dismissal of her discrimination claim,
as well as her retaliation claim, either way, a teacher’s
placement on a TINA is not an adverse employment
action. Welsh II, 941 F.3d at 824.
Under both this Court’s and the Fifth Circuit’s
settled jurisprudence, a discrimination plaintiff must
identify an ultimate employment action which includes:
hiring, granting leave, discharging, promoting, or
compensating. Compare Welsh II, 941 F.3d at 824
(noting that a discrimination plaintiff must identify an
ultimate employment action in order to meet the
adverse employment action prong of a discrimination
claim), with Burlington, 548 U.S. at 62 (noting that the
statutory text of Title VII limits discrimination claims
to ultimate employment actions). Despite Welsh’s
protestations, a teacher’s placement on a TINA does
not involve hiring, leave, discharge, promotion, or
compensation. Consequently, Welsh’s placement on a
TINA cannot support the adverse employment action
prong of her discrimination claim.
And, as explained above, whether a teacher’s
placement on a TINA suffices for a retaliation claim
(and it does not) is immaterial because neither the
district court nor the Fifth Circuit ever addressed this
issue below.
Finally, the TINA is a statutory and regulatory
creature that is unique to the Texas Education Code.
As such, it is used only in Texas in conjunction with
Texas’ contract-based and statutorily governed teacher
employment system. This Court should not commit its
scarce resources to review whether a teacher’s

14
placement on a type of growth plan, that is rooted in
the law of a single state, can constitute an adverse
employment action. What is more, Welsh does not say
that a teacher’s placement on a TINA is always an
adverse employment action – nor could she. Rather,
she says that she was placed on a TINA for pretextual
reasons. Petition at 22. Not only is this argument
unsupported by the facts, but it requires exactly the
sort of highly specific factual review that is
appropriately final in the Circuit courts. This Court
should not devote its resources to reviewing the specific
facts in a case that will essentially be a “one off.”
CONCLUSION
For the above reasons, the Court should deny
Welsh’s Petition for a Writ of Certiorari.
Respectfully submitted,
JONATHAN G. BRUSH
Counsel of Record
AMY DEMMLER
ROGERS, MORRIS & GROVER, L.L.P.
5718 Westheimer, Suite 1200
Houston, Texas 77057
Telephone: 713/960-6000
Facsimile: 713/960-6025
jbrush@rmgllp.com
Counsel for Respondent

